HHS/OIG, Audit -"Review of Medicare Contractor's Pension Segment, Cahaba Government Benefit Administrators,"(A-07-03-03038)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segment, Cahaba Government Benefit Administrators," (A-07-03-03038)
February 18, 2004
Complete
Text of Report is available in PDF format (419 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Cahaba Government Benefit Administrators (Cahaba)
complied with the pension segmentation requirements of the Medicare contract from January 1, 1993 through January 1, 2002.  We
found that Cahaba overstated Medicare segment pension assets by $4,727,525 as of January 1, 2002.  The overstatement
occurred because Cahaba:  (1) included a prepayment credit that should be reassigned to the Other segment, (2) overstated
net transfers of assets into the Medicare segment, (3) understated net earnings allocable to the segment, (4) overstated
benefit payments, (5) overstated contributions allocable to the segment, and (6) overstated assets transferred to the successor
contractor for the Medicare segment.  We recommended that Cahaba decrease the Medicare segment pension assets by $4,727,525
as of January 1, 2002.  We also recommend that Cahaba reassign a prepayment credit of $2,872,185 to the other segment.  Cahaba
agreed with our report.